No. 20-1110
IN THE

Supreme Court of the United States
SANDOZ INC., et al.
Petitioners,
v.
IMMUNEX CORP., et al.
Respondents.
CERTIFICATE OF SERVICE
I, Matthew S. Hellman, hereby certify that I am a member of the Bar of this
Court, and that I have this 15th day of March 2021, caused a paper copy of the Brief
Amici Curiae for The Association for Accessible Medicines and America’s Health
Insurance Plans, Inc. in Support of Petitioners to be delivered to the Court and an
electronic version of the document to be delivered to:
William McGinley Jay
Goodwin Procter, LLP
1900 N Street, N.W.
Washington, DC 20036
(202) 346-4000
WJay@goodwinlaw.com

Constantine L. Trela Jr.
Sidley Austin LLP
One South Dearborn Street
Chicago, IL 60603
(312) 853-7000
ctrela@sidley.com

Counsel for Sandoz Inc., Sandoz
International GmbH, Sandoz GmbH

Counsel for Immunex Corp., et al.

/s/ Matthew S. Hellman
Matthew S. Hellman

